No. 20-1825

 

 

IN THE

Supreme Court of the United States

 

DAVID SEIDEMANN AND BRUCE MARTIN, INDIVIDUALLY AND ON BEHALF OF ALL OTHERS
SIMILARLY SITUATED,

Petitioners,
v.

PROFESSIONAL STAFF CONGRESS LOCAL 2334, ET AL.,

Respondents.

 

CERTIFICATE OF COMPLIANCE

 

As required by Supreme Court Rule 33.1(h), I hereby certify that Iam a
member in good standing of the bar of this Court and that the Reply Brief for
Petitioners contains 2,244 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d), and complies with the word limitation
established by Supreme Court Rule 33.1(g)(ii).

Dated: August 27, 2021

 
